         DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                              Washington, D.C. 20201




January 7, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at FiveCAP, Inc., for the Period November 1,
               2005, Through July 31, 2009 (A-05-09-00089)


The attached final report provides the results of our limited scope review at FiveCAP, Inc., for
the period November 1, 2005, through July 31, 2009. This review was requested by the
Administration for Children and Families (ACF), Office of Head Start as part of its overall
assessment of Head Start grantees that have applied for additional funding under the Recovery
Act.

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

The objectives of our limited scope review were to determine whether FiveCAP addressed past
deficiencies, resolved issues regarding financial viability and
claims for vacation costs, and if it has the capacity to manage and account for Federal funds.

FiveCAP’s overall financial position remains an area of concern. Based on its current financial
condition, FiveCAP can not ensure the continuing viability of the organization unless it
restructures its debt or receives additional funding. In addition, FiveCAP may have claimed
Page 2 – Yvette Sanchez Fuentes

unreasonable compensation costs from the Head Start program for its Executive Director’s
vacation pay in lieu of time off.

In written comments on our draft report, FiveCAP stated that it disputes the finding that it is not
financially viable and believes the finding should be removed from the final report. FiveCAP
disagrees with the methods used to assess financial viability and OIG’s reporting of the short
term liquidity analysis. FiveCAP disputed the finding that $32,765 for vacation compensation
for the Executive Director from the period of November 1, 2005, through July 31, 2009 was
unallowable. FiveCAP stated that the Board of Directors determined that the amounts of
vacation days and pay were appropriate under the circumstances.

After reviewing FiveCAP’s comments, we maintain that our findings regarding its financial
viability remain valid. We did amend our finding on vacation compensation to state that
FiveCAP may have claimed unreasonable vacation compensation in lieu of vacation time for the
Executive Director. We are concerned both with the amount of compensation paid in lieu of
vacation time throughout our review period and in FY 2008 the amount of vacation time
provided to the Executive Director.

In determining whether FiveCAP should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing FiveCAP’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-05-09-00089 in all correspondence.


Attachment
Department of Health and Human Services
           OFFICE OF
      INSPECTOR GENERAL




  RESULTS OF LIMITED SCOPE
REVIEW AT FIVECAP, INC., FOR
THE PERIOD NOVEMBER 1, 2005,
   THROUGH JULY 31, 2009




                         Daniel R. Levinson
                          Inspector General

                           January 2010
                           A-05-09-00089
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                             Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
 OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as
questionable, a recommendation for the disallowance of costs
incurred or claimed, and any other conclusions and
recommendations in this report represent the findings and opinions of
OAS. Authorized officials of the HHS operating divisions will make
final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Public Law 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private non-profit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million was allocated to
award all Head Start grantees a nearly five percent cost-of-living increase and bolster training
and technical assistance activities.

FiveCAP, Inc. (FiveCAP), a 501(c)(3), private, non-profit Michigan corporation, operates Head
Start and Early Head Start programs that provide education, health, and social services to low-
income pre-school children and their families in the Michigan counties of Manistee, Mason,
Lake, and Newaygo.

FiveCAP is funded primarily through Federal and local government grants. During fiscal years
(FY) 2006 through 2009, ACF provided grant funds of approximately $3 million annually to
FiveCAP. FiveCAP received Recovery Act grant funding for a 15-month period ending
September 30, 2010 totaling $221,261 for cost-of-living increases and quality improvement.

FiveCAP filed for Chapter 11 Bankruptcy on April 20, 2006 and was in bankruptcy status as of
the end of our field work. The Notes to Financial Statements for FiveCAP’s FY 2006 Office of
Management and Budget Circular A-133 audit (Notes) state that FiveCAP filed Chapter 11 to
obtain confirmation of a plan of reorganization to satisfy the claims of the National Labor
Relations Board and others. The Notes also state that the Chapter 11 Plan is to be funded by
corporate funds that are not held in trust or otherwise restricted by government rules and
regulations.

OBJECTIVES

The objectives of our limited scope review were to determine whether FiveCAP addressed past
deficiencies, resolved issues regarding financial viability and claims for vacation costs, and if it
has the capacity to manage and account for Federal funds.




                                                  i
SUMMARY OF FINDINGS

FiveCAP’s overall financial position remains an area of concern. Based on its current financial
condition, FiveCAP can not ensure the continuing viability of the organization unless it
restructures its debt or receives additional funding. In addition, FiveCAP may have claimed
unreasonable compensation costs from the Head Start program for its Executive Director’s
vacation pay in lieu of time off.

RECOMMENDATION

In determining whether FiveCAP should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing FiveCAP’s financial condition.

FIVECAP COMMENTS

In written comments on our draft report, FiveCAP stated that it disputes the finding that it is not
financially viable and believes the finding should be removed from the final report. FiveCAP
disagrees with the methods used to assess financial viability and OIG’s reporting of the short
term liquidity analysis.

FiveCAP disputed the finding that $32,765 for vacation compensation for the Executive Director
from the period of November 1, 2005 through July 31, 2009 was unallowable. FiveCAP stated
that the Board of Directors determined that the amounts of vacation days and pay were
appropriate under the circumstances.

FiveCap’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing FiveCAP’s comments, we maintain that our findings regarding its financial
viability remain valid.

We did amend our finding on vacation compensation to state that FiveCAP may have claimed
unreasonable vacation compensation in lieu of vacation time for the Executive Director. We are
concerned both with the amount of compensation paid in lieu of vacation time throughout our
review period and in FY 2008 the amount of vacation time provided to the Executive Director.




                                                 ii
                                                    TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION.................................................................................................................. 1

     BACKGROUND ............................................................................................................... 1
       Head Start Program...................................................................................................... 1
       FiveCAP, Inc................................................................................................................ 1
       Requirements for Federal Grantees ............................................................................. 2

     OBJECTIVES, SCOPE, AND METHODOLOGY........................................................... 2
       Objectives .................................................................................................................... 2
       Scope............................................................................................................................ 2
       Methodology ................................................................................................................ 2

FINDINGS AND RECOMMENDATION........................................................................... 3

     FIVECAP NOT FINANCIALLY VIABLE ...................................................................... 3
        Short Term Liquidity Analysis .................................................................................... 3
        Short Term Stability Analyses ..................................................................................... 4

     POTENTIAL UNALLOWABLE COSTS – VACATION PAY....................................... 4

     CONCLUSION.................................................................................................................. 5

     RECOMMENDATION…………………………………………………………………..6

     FIVECAP COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE…..6


APPENDIX

          FIVECAP COMMENTS




                                                                      iii
                                              INTRODUCTION

BACKGROUND

Head Start Program

Head Start is a national program that promotes school readiness by enhancing the social and
cognitive development of children through the provision of educational, health, nutritional,
social, and other services to enrolled children and families. The Head Start Act (42 U.S.C. §
9831 et. seq.) was most recently amended and reauthorized by Public Law 110-134, Improving
Head Start for School Readiness Act of 2007. Within the U.S. Department of Health and Human
Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to improve
staff compensation and training, upgrade Head Start centers and classrooms, increase hours of
operation, and enhance transportation services. An additional $356 million of Recovery Act
funds, along with fiscal year 2009 appropriation funds, were allocated to award all Head Start
grantees a nearly five percent cost-of-living increase and bolster training and technical assistance
activities.

FiveCAP, Inc.

FiveCAP, Inc. (FiveCAP), a 501(c)(3), private, non-profit Michigan corporation, operates Head
Start and Early Head Start programs that provide education, health, and social services to low-
income pre-school children and their families in the Michigan counties of Manistee, Mason,
Lake, and Newaygo.

FiveCAP is funded primarily through Federal and local government grants. During fiscal
years (FY) 2006 through 20091, ACF provided grant funds of approximately $3 million
annually to FiveCAP. FiveCAP received Recovery Act grant funding for a 15-month period
ending September 30, 2010 totaling $221,261 for cost-of-living increases and quality
improvement.


1FiveCAP’s   fiscal year is November 1 to October 31.



                                                        1
FiveCAP filed for Chapter 11 Bankruptcy on April 20, 2006 and was in bankruptcy status as of
the end of our field work. The Notes to Financial Statements for FiveCAP’s FY 2006 Office of
Management and Budget (OMB) Circular A-133 audit (Notes) state that FiveCAP filed Chapter
11 to obtain confirmation of a plan of reorganization to satisfy the claims of the National Labor
Relations Board and others. The Notes also state that the Chapter 11 plan is to be funded by
corporate funds that are not held in trust or otherwise restricted by government rules and
regulations.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant
related financial data. Grantees are also required to compare outlays with budget amounts for
each award and may use grant funds only for authorized purposes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The objectives of our limited scope review were to determine whether FiveCAP addressed past
deficiencies, resolved issues regarding financial viability and claims for vacation costs, and if it
has the capacity to manage and account for Federal funds.

Scope

This review was performed based upon a limited scope request from ACF, dated June 19, 2009,
to determine whether FiveCAP should be awarded additional Head Start and Recovery Act grant
funding. Therefore, we did not perform an overall assessment of FiveCAP’s internal control
structure. Rather, we reviewed only the internal controls that pertained directly to our objective.
Our review period was November 1, 2005, through July 31, 2009.

We performed our fieldwork at FiveCAP’s administrative office in Scottville, Michigan, during
July and August 2009.

Methodology

To accomplish our objective, we;

       reviewed relevant Federal laws, regulations, and guidance;

       obtained Federal grant award documentation to determine FiveCAP Federal funding;

       reviewed FiveCAP’s “Personnel Policies & Procedures Manual for

                                                  2
       Administrative/Supervisory Employees;”

      reviewed FiveCAP’s Executive Director employment contracts;

      reviewed FiveCAP’s financial statements for FYs 2006 through 2008;

      reviewed FiveCAP’s FYs 2006, 2007, and 2008 OMB Circular A-133 audit reports;

      reviewed FiveCAP’s SF-269, Financial Status Reports, submitted to ACF; and

      performed liquidity and stability analyses of FiveCAP’s finances.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATION

FiveCAP’s overall financial position remains an area of concern. Based on its current financial
condition, FiveCAP can not ensure the continuing viability of the organization unless it
restructures its debt or receives additional funding. In addition, FiveCAP may have claimed
unreasonable compensation costs from the Head Start program for its Executive Director’s
vacation time and vacation pay in lieu of time off.

FIVECAP NOT FINANCIALLY VIABLE

To determine whether FiveCAP is financially viable, we performed liquidity and stability
analyses of FiveCAP finances for FYs 2006 through 2008.

Short Term Liquidity Analysis

We performed a liquidity analysis, which measures the relationship of total revenues to total
expenses, to determine FiveCAP’s ability to pay its current obligations. Generally, for an
organization to be considered fiscally sound, revenues should be greater than expenses. Our
analysis indicated the following:

                        Reported Total              Reported Total
       Fiscal Year         Revenue                    Expenses             Net Revenue
          2006             $5,595,552                 $6,112,258           ($516,706)
          2007              4,794,775                  4,562,144              232,631
          2008              5,227,461                  5,421,938            (194,477)
          Total           $15,617,788                $16,096,340           ($478,552)

During the three year period, FiveCAP reported total expenses that exceeded reported total
revenues in two of the three years and had a three year net total revenue loss of $478,552.

                                                3
This financial position is an area of concern.

Short Term Stability Analyses

We performed a temporarily restricted net asset ratio, which measures the relationship of
temporary restricted net assets and deferred revenue to cash and cash equivalents, to determine a
measurement of fiscal responsibility. Generally, for an organization to be considered fiscally
sound, the ratio should be 1:1. Our analysis disclosed the following:

                                                 Temporary Restricted
                              Fiscal Year          Net Asset Ratio
                                 2006                   2.05
                                 2007                   2.04
                                 2008                   1.92

The high ratios (each year’s ratio is greater than 1:1) for temporarily restricted net assets indicate
that FiveCAP may be borrowing from net assets intended to be used in future periods. This
financial position is an area of concern.

We performed a quick ratio analysis, the relationship of current assets to current liabilities, to
determine if FiveCAP had sufficient cash available to pay bills due over the next year.
Generally, if an entity’s ratio is below 1:1, the entity would be in danger of insufficient cash to
pay current bills. Our analysis disclosed the following:

                                                  Current Assets to
                                                  Current Liabilities
                              Fiscal Year              Ratio
                                 2006                   0.48
                                 2007                   0.61
                                 2008                   0.57

The low ratios for current assets to current liabilities indicate that FiveCAP may be in danger of
insufficient cash to pay current bills. This financial position is an area of concern.

POTENTIAL UNALLOWABLE COSTS - VACATION PAY

To determine whether the Executive Director’s salary, including vacation time and vacation pay
in lieu of time off, was reasonable and allowable we reviewed Federal regulations (45 CFR §
74.27 and the corresponding OMB Circular), FiveCAP’s “Personnel Policies & Procedures
Manual for Administrative/Supervisory Employees” and the employment contracts of the
Executive Director during the period in question.

OMB Circular A-122, Att. B, § 8.b.(1) (2 CFR Part 230, App. B, § 8.b.(1)) states that
compensation costs are allowable to the extent that total compensation to individual employees is
reasonable for the services rendered and conforms to the established policy of the organization
consistently applied to both Federal and non-Federal activities. Additionally, the Circular

                                                   4
provides that when the organization is predominantly engaged in federally-sponsored activities
and in cases where the kind of employees required for the Federal activities are not found in the
organization’s other activities, compensation for employees on federally sponsored work will be
considered reasonable to the extent that it is comparable to that paid for similar work in the labor
markets in which the organization competes for the kind of employees involved (2 CFR Part 230,
App. B, § 8.c.(2)). The Circular further states that in determining the reasonableness of costs,
significant deviations from the established practices of the organization that may unjustifiably
increase the award costs should be considered (2 CFR Part 230, App. A, § A.3.d).

FiveCAP’s “Personnel Policies & Procedures Manual for Administrative/Supervisory
Employees” provides for a maximum of 15 vacation days per year for all FiveCAP employees.
The manual prohibits vacation pay in lieu of actual vacation time without the approval of the
Executive Director. The Executive Director’s contract for this period provided 30 days paid
vacation per year starting June 28, 2002, and 60 days paid vacation per year starting March 1,
2008. The Executive Director’s vacation days were increased by the Board of Directors to make
up for severance pay and other compensation not received by the Executive Director in prior
years. The contract provided for pay in lieu of time off for the Executive Director and was
authorized by the Board Chairperson.

Our analysis of FiveCAP’s Executive Director’s allotted vacation days and pay in lieu of time
off disclosed the following:

                    Total Vacation       Total Vacation       Total Vacation        Claims For
                    Days Granted to      Days Allowed          Days Paid In        Vacation Days
                      Executive           By FiveCAP           Lieu of Time       in Lieu of Time
  Fiscal Year          Director              Policy                 Off                 Off
     2006                  30                  15                    6                 $3,003
     2007                  30                  15                   22                 11,101
     2008                  60                  15                   36                 18,661
     Total                120                  45                   64                $32,765

We are concerned that FiveCAP may have provided the Executive Director an unreasonable
amount of vacation time in fiscal year 2008 (12 weeks of paid time off) and may have claimed
unreasonable vacation compensation in lieu of vacation time for the Executive Director for
November 1, 2005, through July 31, 2009. Three months of paid vacation, more than half of
which was provided in cash in addition to the Executive Director’s regular pay, seems all the
more unreasonable given the financial difficulties that FiveCAP was facing during this period.

CONCLUSION

FiveCAP’s overall financial position remains an area of concern, and it may have claimed
unreasonable costs related to vacation pay for the Head Start program.




                                                 5
RECOMMENDATION

In determining whether FiveCAP should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing FiveCAP’s financial condition.

FIVECAP COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, FiveCAP stated that it disputes the finding that it is not
financially viable and believes the finding should be removed from the final report. FiveCAP’s
comments are included in their entirety as the Appendix.

Financial Viability

FiveCAP Comments

FiveCAP stated that it disagreed with the methods used to assess financial viability. FiveCAP
stated that the method that the OIG used to calculate the temporarily restricted net asset ratio
(temporary restricted net assets plus deferred revenue divided by cash and cash equivalents) was
flawed because it did not include restricted cash as part of current assets. FiveCAP stated that
restricted cash is related to deferred revenue and thus should be included in the calculation.

Further, FiveCAP stated that the quick ratio used by the OIG measured the relationship of
current assets to current liabilities (cash plus accounts receivable divided by current liabilities).
FiveCAP stated that if deferred revenue is to be included on the liability side of the equation,
then restricted cash should be included in the asset side of the equation since, as noted above,
restricted cash is related to deferred revenue. FiveCAP indicated that when the standard methods
are applied, FiveCAP shows acceptable ratios in both tests described above.

FiveCAP stated that the OIG=s short term liquidity analysis showed a revenue loss over the three-
year period of FY 2006, 2007 and 2008, but did not explain the events leading to the numbers.
FiveCAP stated that the outcome is incorrect because it recorded a liability of $584,775 in 2006,
resulting from a determination made in an administrative proceeding which was lowered in 2007
by almost half ($300,000). FiveCAP indicated that the liability was adjusted down accordingly
and that it continues to negotiate the amount of the liability and anticipates settling the claim in
the near future with the use of available assets. FiveCAP stated that only corporate assets were
ever at risk in this matter; at no time were Grant funds at risk.

Office of Inspector General Response

We maintain that our finding that FiveCAP’s overall financial position and viability of the
organization remain an area of concern. Restricted cash should be used in the denominator of
the temporarily restricted net asset ratio and the numerator of the quick ratio. The Statement of
Financial Accounting Standards No. 117, Financial Statements of Not-for-Profit Organizations,
states that cash or other assets received with a donor-imposed restriction that limits their use to
long-term purposes should not be classified with cash or other assets that are unrestricted and


                                                 6
available for current use. The restricted cash balances in place at FiveCAP are for the purposes
of loans to individuals for the purchase of personal vehicles and matches for savings accounts of
qualified individuals. The classification of the balances alone indicates a long-term nature, e.g.,
vehicle loans and savings accounts, and the fact that the vehicle loan and savings account
balances did not materially change over the period of September 30, 2005 though September 30,
2008 supports our classification of these balances as non-current assets.

With regards to our short term liquidity analysis, the variables included in our analysis were
revenues and expenditures, not assets and liabilities. FiveCAP’s statement that our report infers
that revenue loss exceeds available assets is not directly related to our analysis of liquidity as
reported.

Vacation Pay

FiveCAP Comments

FiveCAP stated that it disputed the finding that $32,765 for vacation compensation for the
Executive Director from the period of November 1, 2005 through July 31, 2009 was
unallowable. FiveCAP states that OMB Circular A-122 does not define what form the
established policies of the organization take, nor does it require all policies to be in one
personnel manual. FiveCAP indicated that the Executive Director employment contract, signed
by the Board of Directors, contains policy provisions allowing the Executive Director certain
vacation days and that the Personnel Policies and Procedures Manual expressly includes
provisions that allow the Board of Directors to modify benefits as they see fit. FiveCAP stated
that the Board of Directors determined that the amounts of vacation days and pay were
appropriate under the circumstances.

Office of Inspector General Response

We amended our finding to state that FiveCAP may have claimed unreasonable vacation time
and vacation compensation in lieu of vacation time for the Executive Director. For the reasons
stated in our findings we are concerned both with the amount of compensation paid in lieu of
vacation time throughout our review period and in FY 2008 the amount of vacation time
provided to the Executive Director. We leave the determination to ACF of whether this amount
of vacation time and amount of days granted of vacation pay in addition to regular pay was
reasonable, both in comparison to prior practices of this organization, in comparison with other
organizations in similar situations and given the financial turmoil that this particular grantee was
facing.




                                                 7
APPENDIX
                                                                                      Page 1 of 4



                           APPENDIX: AUDITEE COMMENTS

October 6, 2009


Marc Gustafson
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Audit Services
233 North Michigan Avenue
Chicago, IL 60601

Report Number:        A-05-09-00089

Dear Mr. Gustafson:

        FiveCAP, Inc. (“FiveCAP”) appreciates the opportunity to comment on the draft audit
report, A-05-09-00089, dated September 2009 ( the “report”) from the Department of Health and
Human Services’ Office of Inspector General (“OIG”) covering November 1, 2005 through July
31, 2009 as well as the extension given by the OIG on our response. We respectfully disagree
with all three draft findings found in the draft report. Below we provide the rationale for why
these draft findings are incorrect and should be removed prior to the OIG’s issuance of the final
audit report. We take each finding in turn:

FiveCAP’s Financial Viability

       FiveCAP disputes the finding that it is not financially viable because we disagree with the
methods used to assess viability. The OIG’s Short Term Stability Analysis and Quick Ratio
methods do not comport with Standard Methods. Further, the Liquidity Analysis does not take
into account a settlement in progress. Accordingly, the finding of lack of financial viability
should be removed from the final report.

        In terms of the Short Term Stability Analyses, which included calculation of the
Temporarily Restricted Net Asset Ratio and a Quick Ratio, FiveCAP disagrees with the method
used. The OIG’s draft of the Temporarily Restricted Net Asset Ratio measured the relationship
of temporary restricted net assets and deferred revenue to cash and cash equivalents. It used a
formula of Temporarily Restricted Net Assets plus Deferred Revenue divided by Cash and Cash
Equivalents. This method is flawed because it did not include Restricted Cash as part of current
assets. Restricted Cash is related to Deferred Revenue and thus should be included in the
calculation. The calculation should be Temporarily Restricted Net Assets plus Deferred
Revenue divided by Cash plus Cash Equivalents plus Restricted Cash. The attached report
compares the OIG/OAS calculation to the Standard Method of Calculation.
                                                                                        Page 2 of 4


        Further, the Quick Ratio measured the relationship of current assets to current liabilities.
The formula used by the OIG was Cash plus Accounts Receivable divided by Current Liabilities.
If Deferred Revenue is to be included on the liability side of the equation, then Restricted Cash
should be included in the asset side of the equation since, as noted above, Restricted Cash is
related to Deferred Revenue. The attached report compares the OIG/OAS calculation to the
Standard Method of Calculation.

       When the Standard Methods are applied, FiveCAP shows acceptable ratios in both tests
described above. Accordingly, the OIG should remove this finding from the report.

        In addition, the OIG’s Short Term Liquidity Analysis showed a revenue loss over the
three-year period of FY 2006, 2007 and 2008. The draft report ends there, however, without
explaining the events leading to those numbers and infers that revenue loss exceeds available
assets. This outcome is incorrect because that is not FiveCAP’s situation. In 2006, FiveCAP
recorded a liability of $584,775 as the result of a determination made in an administrative
proceeding. In 2007, however, the settlement amount in the case was determined to be lower by
almost half ($300,000). As such, the liability on FiveCAP’s books was adjusted down
accordingly. Currently, FiveCAP continues to negotiate the amount of the liability and
anticipates settling the claim in the near future with the use of available assets. In addition, only
corporate assets were ever at risk in this matter; at no time were Grant funds at risk. FiveCAP
has successfully met and exceeded all of its obligations to its funders during the periods
examined, and continues to do so.

        In sum, because of the methodological flaws and incorrect outcomes listed in this finding,
it should be removed.

Vacation Pay

        FiveCAP disputes the finding that $32,765 for vacation compensation for the Executive
Director from the period of November 1, 2005 through July 31, 2009 is unallowable under
Office of Management and Budget Circular A-122 (codified at 2 C.F.R. Part 230). The draft
report cites A-122, Att. B, §8.b.(1) which states that

       Except as otherwise specifically provided in this paragraph, the costs of such
       compensation are allowable to the extent that: (1) Total compensation to
       individual employees is reasonable for the services rendered and conforms to the
       established policy of the organization consistently applied to both Federal and
       non-Federal activities;…

        Importantly, this section of A-122 requires that compensation “conforms to the
established policy of the organization.” (Id.) A-122 does not define what form the established
policies of the organization must take, nor does it require all policies to be in one personnel
manual. Contracts that a grantee signs are part of the employment policies of the organization.
Yet the draft report focuses solely on one section of the “Personnel Policies and Procedures
Manual” that contains a vacation day limitation and disregards the vacation provisions contained
                                                                                                           Page 3 of 4


in the two Executive Director employment contracts that were agreed to by the Board of
Directors (dated June 28, 2002 and March 1, 2008; shared with the OIG). Those two
employment agreements contain policy provisions allowing the Executive Director certain
vacation days, which is the longstanding practice of the organization.

        Moreover, it should be noted that the same Employment Manual that the OIG relies upon
states that “[t]he Board of Directors is responsible for establishing basic policy within which the
agency operates” (at 1); “Benefits outlined in this document may be added to, expanded,
reduced, deleted or otherwise modified by FiveCAP” and any such modifications “shall be solely
within the discretion of FiveCAP” (at 1); and “FiveCAP reserved and retains, solely and
exclusively, all rights to manage and operate its affairs and such rights of FiveCAP shall not in
any way be abridged by the terms of this manual” (at 2). Thus, the Employment Manual
expressly includes provisions that allow the Board of Directors to modify benefits as they see fit.

       The Board did just that in the case of the Executive Director. The Executive Director’s
agreement covering 2002-2008 contains a policy provision that allows for “30 days paid vacation
each year” and “[p]ay in lieu will be authorized by the Board Chairperson.” The agreement
covering 2008-2013 allows for “60 days paid vacation each year” and [p]ay in lieu will be
authorized by the Board Chairperson.” Accordingly, the draft report’s finding that $3,003 for
2006, $11,101 for 2007, and $18,661 for 2008 were unallowable costs is simply incorrect.

       Further, in its reviews of the Executive Director, the Board determined that these
amounts of vacation days and pay were appropriate under the circumstances. When it
determined the amounts of vacation time in the policies for the Executive Director, the Board
acted prudently in determining that these amounts of vacation days were necessary, due to
additional work load and lack of vacation days previously taken.

       In sum, the OIG should remove this finding from the draft report because the Executive
Director’s vacation days are allowable costs under the policies of the organization1

Legal Fees2

        FiveCAP disputes the finding that $1,638 of legal fees are unallowable costs under Office
of Management and Budget Circular A-122 (codified at 2 C.F.R. Part 230). The draft report
cites A-122, Att. B §10.b.(1)(c) which states that



1 If, after reviewing the evidence, the OIG still fails to agree with FiveCAP on this matter, we urge it to at least
review and recalculate the amounts of “unallowable vacation pay costs claimed” it lists in the draft report. It
appears from the report that the OIG has tried to disallow the entire amount of vacation pay to the Executive
Director, not just any amounts over the 15 day policy that, as explained above, do not apply. Thus, the OIG’s
calculation and approach is inaccurate.

2 Office of Inspector General Note – This paragraph is not applicable because the finding referred to by the auditee
is not included in the report.
                                                                                      Page 4 of 4




       Except as otherwise described herein, costs incurred in connection with any
       criminal, civil or administrative proceeding. . . commenced by the Federal
       Government, or a State, local or foreign government, are not allowable if the
       proceeding: (1) relates to a violation of, or failure to comply with, a Federal,
       State, local or foreign statute or regulation by the organization (including its
       agents and employees), and (2) results in. . .: (c) In the case of any civil or
       administrative proceeding, the imposition of a monetary penalty.

        While A-122, Att. B, §10.a.(5) does include “an investigation” in the definition of a
“proceeding,” in the EEOC investigation that resulted from the one complaint in question, there
was no “imposition of a monetary penalty.” In fact, quite the opposite is true. The EEOC closed
its case and the complaint was dismissed (see Notice of Disposition and Order of Dismissal
EEOC #210A402670 received by FiveCAP on 2/3/05, shared with the OIG). Further, both
parties entered into a final and binding consent decree in a settlement process urged by the
mediator appointed by the court that states that “[t]his agreement. . . shall not constitute an
adjudication or finding on the merits of this case and shall not be construed as an admission by
Defendant of any violation. . .” (see Consent Decree for case number 1:05-CV-0153, at 3, dated
11/13/2006, shared with the OIG’s team). Thus, with no final adjudication or finding, no
monetary penalty was imposed.

       The OIG misconstrued the “compensation” provided for in the consent decree as a
“monetary penalty.” (See id., page 3.) A-122, Att. B, §10.a.(4), however, states that a “[p]enalty
does not include restitution, reimbursement, or compensatory damages.” The amount provided
to the ex-employee through the consent decree was “compensation,” i.e., reimbursement
(Consent decree, at 3.) and was intended to end the investigation and cover some of the cost of
back pay to the complainant. As such, no “monetary penalty” was imposed in the settlement.

       In addition, this case’s details and settlement were vetted with HHS attorneys in June of
2006. Accordingly, the OIG should remove this finding and allow the full amount of reasonable
and allocable legal fees ($1,638) which are allowable costs. (See Community Action
Commission of the Cincinnati Area, DAB No. 380 (1983)(noting that legal fees are generally
allowable).

Sincerely,

Mary L. Trucks
Mary L. Trucks
Executive Director

Attachment

c:     Clarence Hightower Jr., Senior Auditor
       Mike Barton, Audit Manager
       Bernice Culpepper, FiveCAP Board Chairperson
